WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

SEP 2 3 2020
OFFICE OF THE CLERK

No. 20-323
John S. Barth
(Petitioner)

v.

City of Peabody, Massachusetts
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
g5

Please enter my appearance as Counsel-of Record-for all respondents.

CI

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presentl member of the Bar of this Court. Should a response be requested,
the response w
'led
Bar.x ember.
Signature
Date: 9/23/2020
(Type or print) Name Adam J. Buckley, Esq.
Mr.
0 Ms.

0 Mrs.

0 Miss

Firm Adam J. Buckley, Attorney At Law, P.C.
Address 7 Essex Green Drive, Ste. 62
City & State Peabody, Massachusetts

Zip 01960

Phone 978.532.7400
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Mr. John Barth
P.O.Box 88
Springvale, ME 04083

RECEIVED
OCT 2 - 2020

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

OFFICE OF THE CLERK
SUPREME COURT U.S.

City of Peabody
OFFICE OF THE ASSISTANT CITY SOLICITOR
7 Essex Green Drive, Ste. 62 • Peabody, Massachusetts 01960 • 978-532-7400 • FAX 978-532-7403 EMAIL adam@adambuckleylaw.com
CITY OF PEABODY WEB SITE www.ci.peabodv.ma.us

Adam J. Buckley
Assistant City Solicitor

September 23, 2020
VIA REGULAR MAIL ONLY
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Barth v. City of Peabody, Massachusetts
No. 20-323

To Whom It May Concern:
Enclosed please find for filing and docketing the Respondent's Waiver Form. Thank you for your attention to
this matter.
Very truly yours,

AJB/jab
cc w/ encl:

John Barth
P.O. Box 88
Springvale, ME04083

RECEIVED
OCT 2 - 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

